TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Taxpayer Assistance Center Closure
                     Plan Was Based on Inaccurate Data



                                            March 2006

                              Reference Number: 2006-40-061




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  March 22, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Taxpayer Assistance Center Closure Plan
                               Was Based on Inaccurate Data (Audit # 200540025)

 This report presents the results of our review of the Taxpayer Assistance Center (TAC) Closure
 Model. The overall objective of this review was to determine whether the TAC Closure Model
 (the Model) effectively achieved the Internal Revenue Service’s (IRS) goal of identifying which
 TACs to close.1

 Synopsis
 In May 2005, the IRS announced plans to close 68 of its 400 TACs nationwide. Closing the
 68 TACs was expected to yield staffing and facilities cost savings of $45 million to $55 million.
 To determine which TACs to close, the IRS and an independent contractor used an
 industry-standard software package and developed the Model.
 After the IRS’ announcement to close 68 TACs, a law was passed delaying the closure of any
 TACs.2 The IRS is prohibited from using funds provided in the 2006 budget appropriation to
 reduce any taxpayer service function or program until the Treasury Inspector General for Tax
 Administration (TIGTA) completes a study detailing the effect of the IRS’ plans to reduce
 services relating to taxpayer compliance and taxpayer assistance.



 1
   IRS employees that work in the TACs provide face-to-face assistance to customers by interpreting tax laws and
 regulations, preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments,
 and providing various other services designed to minimize the burden on taxpayers in satisfying their tax
 obligations.
 2
   Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
 Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data




The Model, which is criteria based and data driven, ranked each of the IRS’ 400 TACs based
on 5 criteria: 1) geography, 2) employee costs, 3) facilities costs, 4) workload, and
5) demographics. The Model ranked the TACs from highest to lowest score. The higher the
score, the higher the probability a TAC was selected for closure. To further refine the
identification of TACs to be closed, the IRS applied 3 business rules, ensuring 1) a significant
office presence would remain in the top 35 metropolitan areas, 2) no State would lose more than
one-half of its TACs, and 3) no TACs in Alaska and Hawaii would be closed.
One benefit of developing this Model is that, for the first time, the IRS has a single database
housing key management information for each of the 400 TACs. The retrieval and consolidation
of key management information into a single database addresses a significant operational
weakness reported by the TIGTA.3 The Model is a flexible decision-making tool that the IRS
should be able to maintain for future analyses.
To test the reliability of the data and the results of the Model, we systematically selected4 a
sample of 60 of the 400 TACs5 and validated all data subcomponents for each of the 60 TACs.
Testing identified that, although the structure of the Model was sound, not all data used were
accurate or the most current available and some of the data were based on estimates and
projections instead of actual data currently available. Data discrepancies affected the scores the
Model calculated for each TAC and ultimately the ranking and overall selection of TACs for
closure. When we reran the Model for the 60 selected TACs, the overall scores for each of the
60 TACs changed. We did not validate data for the remaining 340 TACs and therefore cannot
determine if validating all data for all 400 TACS would affect the overall ranking of the TACs
and/or the overall selection of which TACs are to be closed. However, results from validating
the data for 60 TACs show sufficient discrepancies and raise concerns about using the results to
select which TACs to close and in determining the associated cost savings that might be
achieved.
For example, after the Model was originally run, all 400 TACs were scored and ranked, and the
business rules were applied, the IRS identified 68 TACs that, if closed, would achieve the IRS’
targeted savings of $45 million to $55 million. Each TAC selected for closure had a cumulative
score higher than 154.83. For the 60 TACs sampled, we validated the data and, using the Model,
rescored them. Using 154.83 as the cutoff score, we determined the scores for 10 (17 percent) of
the 60 TACs included in our sample changed to either above or below the cutoff score, thus
raising the possibility that these TACs had been incorrectly identified to be closed or to remain
open.

3
  The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
4
  Systematic sampling involves using a random starting point, where every “nth” record is chosen for selection.
“N” equals the number in the population divided by the number in the sample.
5
  The sample included the selection of 30 TACs from those to be closed and 30 TACs from those to remain open.
                                                                                                                  2
                                    The Taxpayer Assistance Center
                               Closure Plan Was Based on Inaccurate Data




In addition, data discrepancies affected the IRS’ ability to accurately determine cost savings.
The IRS might have overselected or underselected the number of TACs that needed to be closed
to reach the targeted savings of $45 million to $55 million. The inclusion of accurate costing
information for all 400 TACs could affect the number of TACs the IRS would have to select to
meet its targeted cost savings. Furthermore, the quality of the Model’s workload data and the
absence of customer information diminish the effectiveness of the Model to identify which TACs
to close. In Fiscal Year 2005, we reported that management information does not provide an
adequate picture of all services provided at the TACs.6 As a result, neither the IRS nor we can
determine the effect TAC closures might have on taxpayer compliance.

Recommendations
The Commissioner, Wage and Investment Division, should ensure data used in the Model or any
decision-making tool are accurate and reliable and have been validated before using them to
make decisions regarding the TAC Program. In addition, the Model or any decision-making tool
should include data to identify customer characteristics and capture customer input to effectively
measure the impact any results might have on taxpayer service and compliance.

Response
IRS management agreed that data reliability is an issue that must be addressed. Management
also agreed in principle with both of our recommendations and is taking corrective actions.
However, they expressed the concern that measuring the effect of taxpayer services on
compliance is a difficult task that the IRS has been unable to accomplish reliably since the
inception of taxpayer service programs in the 1940s.
The IRS will ensure data used in the Model or any decision-making tool as it relates to the
TAC Program are accurate and verified. Additionally, data and research are currently being
collected for the Taxpayer Assistance Blueprint. The Taxpayer Assistance Blueprint will be a
5-year plan that outlines what services the IRS should provide, as well as how to improve
services for taxpayers by leveraging reliable data on taxpayer and partner needs and preferences.
Phase I will provide a baseline of current IRS services, taxpayer and partner needs and
preferences, service industry benchmarking, and strategic service directions. Phase II will
validate the service recommendations through extensive primary research with taxpayers and
will identify key operational and resource delivery requirements. These data will be used,
updated, and maintained for use in the Model (or other related decision-making tools) to assist



6
 The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
                                                                                                 3
                                The Taxpayer Assistance Center
                           Closure Plan Was Based on Inaccurate Data




the IRS in making informed decisions regarding all of its taxpayer services. Management’s
complete response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs) (Designee), at (202) 622-5916.




                                                                                            4
                                           The Taxpayer Assistance Center
                                      Closure Plan Was Based on Inaccurate Data




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          The Taxpayer Assistance Center Closure Model Consolidates Key
          Management Information Into a Single Database ........................................Page 6
          Data Discrepancies Resulted in the Inability to Correctly Select
          Taxpayer Assistance Centers for Closure and the Inability to Accurately
          Determine Cost Savings................................................................................Page 7
          The Quality of Taxpayer Assistance Center Workload Data and the
          Absence of Customer Information Diminish the Effectiveness of the
          Model to Identify Taxpayer Assistance Centers for Closure........................Page 14
                    Recommendations 1 and 2: ..............................................Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 20
          Appendix II – Major Contributors to This Report ........................................Page 24
          Appendix III – Report Distribution List .......................................................Page 25
          Appendix IV – Nationwide List of Taxpayer Assistance Centers................Page 26
          Appendix V – Taxpayer Assistance Center Closure Model
          Subcomponents, Rankings, and Associated Weights ...................................Page 30
          Appendix VI – Taxpayer Assistance Centers Included in the Treasury
          Inspector General for Tax Administration Validation ..................................Page 32
          Appendix VII – External Stakeholders Contacted by the
          Treasury Inspector General for Tax Administration.....................................Page 33
          Appendix VIII – Management’s Response to the Draft Report ...................Page 34
                                 The Taxpayer Assistance Center
                            Closure Plan Was Based on Inaccurate Data




                                      Background

The Internal Revenue Service (IRS) provides taxpayers the option of obtaining personal,
face-to-face tax assistance at 400 Taxpayer Assistance Centers (TAC) nationwide. IRS
employees that work in the TACs assist customers by interpreting tax laws and regulations,
preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting
payments, and providing various other services designed to minimize the burden on taxpayers in
satisfying their tax obligations. The IRS suggests taxpayers visit the TACs when they have
complex tax issues, need to resolve tax problems relating to their tax accounts, have questions
about how the tax law applies to their individual income tax returns, or feel more comfortable
talking with someone in person. See Appendix IV for a list of the 400 TACs.

The IRS announced plans to close 68 TACs nationwide
In May 2005, the IRS announced plans to close 68 TACs nationwide, which was expected to
yield staffing and facilities cost savings of $45 million to $55 million. In an IRS News Release,
Internal Revenue (IR)-2005-63, dated May 27, 2005, the IRS stated it:
       . . . plans to close a portion of its Taxpayer Assistance Centers as part of the
       agency’s continuing efforts to create efficiencies, modernize operations, and
       reduce costs while maintaining its commitment to taxpayer service. Adjusting the
       number of TAC sites will allow the IRS to focus on activities that provide the most
       efficient services. At the same time, taxpayers will still have access to a variety of
       IRS services, either by [tele]phone, through IRS.gov, and from neighboring TAC
       offices and IRS volunteer tax assistance programs. As the IRS is modernizing
       how taxpayers receive service, the agency remains committed to improving
       service and meeting the needs of taxpayers . . . .
The IRS Commissioner in a released statement explained:
       The President’s 2006 budget request for the IRS is crafted to continue the
       necessary rebuilding of our enforcement capabilities, which had dropped to
       unacceptable levels. The 2006 budget request also calls for a modest amount of
       belt-tightening in taxpayer services. This cut to services of 1 percent is consistent
       with the requests for domestic discretionary programs other than those associated
       with homeland security. While we continue to rebuild our enforcement program
       in these difficult budgetary times, we must make some hard choices to be able to
       provide the best possible service at the lowest possible cost.
In conjunction with the TAC closure announcement, the IRS stated that, out of the
2,300 employees that work in the TACs nationwide, fewer than 450 employees were located in

                                                                                                Page 1
                                       The Taxpayer Assistance Center
                                  Closure Plan Was Based on Inaccurate Data



the 68 TACs it planned to close. Further, as the agency’s budget allowed, qualifying employees
may be offered early-out retirements and buyouts.1 Most employees may be entitled to priority
placement for other jobs within the IRS and other Department of the Treasury bureaus.

The TAC Closure Model was built to determine which TACs to close
To determine which TACs to close with a minimal impact to the taxpaying public, the IRS and
an independent contractor used an industry-standard software package and developed the
TAC Closure Model (the Model). The IRS stated the use of the Model would result in a
substantial savings of taxpayers’ money while continuing to provide the same level of assistance
the public has come to expect from the IRS.
The Model, which is criteria based and data driven, ranked each of the IRS’ 400 TACs based on
over 13,000 data points input to the Model. The IRS developed five main criteria components to
be used in ranking and deciding which TACs to close: 1) geography, 2) employee costs,
3) facilities costs, 4) workload, and 5) demographics. Included in the 5 main components were
51 subcomponents.
The IRS provided the contractor with the data used to populate the Model. The IRS obtained
these data from internal sources, as well as from the United States Census Bureau. The IRS was
also responsible for weighting each of the 5 main components and the associated
51 subcomponents. The weighting was described as being customer centric and based on input
from internal and external stakeholders. Over two-thirds of the weighting focused on customer
considerations, including demographics, geography, and workload. The remaining one-third
focused on facilities and labor costs. Figure 1 presents the five main components and associated
weighting. Appendix V details the 51 subcomponents, along with the rankings and associated
weights.




1
  Early-out retirements occur when an individual must retire involuntarily because of a reduction in force,
reorganization, transfer of function, or similar circumstance, or they choose to retire early. Buyouts occur when
Federal Government agencies are allowed to pay separation incentives to any employee who leaves Federal
Government service or takes regular or early retirement.
                                                                                                             Page 2
                                     The Taxpayer Assistance Center
                                Closure Plan Was Based on Inaccurate Data



Figure 1: TAC Closure Model – Five Main Components and Associated Weighting




       Source: IRS TAC Closure Model.

To assist in determining the specific weighting to be used in the Model, the IRS consulted with
internal stakeholders, including the National Taxpayer Advocate, and external stakeholders,
including the IRS Advisory Council.2 Initially, the IRS assigned equal weighting to each of the
five main components. Based on the data input to populate the subcomponents and the
weighting, the Model ranked the TACs from highest to lowest score. The higher the score, the
higher the probability a TAC was selected for closure. However, the results did not meet the
IRS’ objective of providing a balanced program in delivering assistance to taxpayers because the
TACs initially selected were the largest and most costly TACs. The IRS then revised its
methodology to give slightly more weight to geography, demographics, and workload
(see Figure 1). In addition, the IRS developed and applied the following three business rules:
1) A significant office presence would remain in the top 35 metropolitan areas based on the
   latest Census population information.

2
 The IRS Advisory Council provides an organized public forum where representatives of the public and IRS
officials discuss relevant tax administration issues.
                                                                                                       Page 3
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data



2) No State would lose more than one-half of the TACs in that State or have a TAC closed that
   accounted for more than 40 percent of the customers serviced in that State.
3) Alaska and Hawaii would not have any TACs closed, as they are remote locations away from
   the continental United States.
The Model was then rerun with the new business rules; it identified 68 TACs to be closed to
achieve the targeted savings.

Congress reacts to the IRS TAC closure announcement
In response to the IRS’ announcement of its plans to close 68 TACs, Congress proposed
language to be included in the Department of the Treasury Appropriations Act, 2006,3 that would
delay the closing of any TACs. The Committee on Appropriations stated in the Senate Report:
        . . . Due to the Committee’s concerns, the Committee has included an
        administrative provision that prohibits the use of funds provided in this Act for
        purposes of reducing any taxpayer service function or program until the Treasury
        Inspector General for Tax Administration [TIGTA] has completed a study
        detailing the impact of the IRS’ plans to reduce services on taxpayer compliance
        and taxpayer assistance. The Committee also requests [the] TIGTA to review the
        accuracy of the estimated cost-savings [sic] of the reduced services.4
The Report further states:
        . . . The Committee is concerned about the proposed taxpayer service reductions
        due to the IRS’ inability to explain the potential impact of these changes on
        taxpayers. Reducing taxpayer services, especially for the Nation’s most vulnerable
        and needy populations, is puzzling, especially given the trends in the Nation’s
        demographics, which indicate a growing elderly population and immigrant
        population. Yet, instead of increasing and improving taxpayer services for these
        populations, the IRS’ budget proposes to cut services that these populations rely
        upon.
On July 13, 2005, the IRS announced that early-out retirements and buyouts were being
placed on hold, pending Congressional action. In IRS News Release IR-2005-77, posted
July 29, 2005, the IRS announced Congress had provided additional funding with the IRS
2006 budget request and the Commissioner had decided to immediately suspend the
proposed closures until any related actions required by the Fiscal Year 2006 IRS
appropriation were completed.

3
  H.R. 3058, Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia,
and Independent Agencies Appropriations Act, 2006.
4
  Senate Report 109-109 - Transportation, Treasury, Housing and Urban Development, the Judiciary,
the District of Columbia, and Independent Agencies Appropriations Act, 2006.
                                                                                                         Page 4
                                     The Taxpayer Assistance Center
                                Closure Plan Was Based on Inaccurate Data



On November 30, 2005, a law was passed stating:
        None of the funds appropriated or otherwise made available in this or any other Act
        or source to the Internal Revenue Service may be used to reduce taxpayer services as
        proposed in Fiscal Year 2006 until the Treasury Inspector General for Tax
        Administration completes a study detailing the impact of such proposed reductions
        on taxpayer compliance and taxpayer services.5

The TIGTA evaluated the accuracy of data input to the TAC Closure Model
This review was performed at the IRS Wage and Investment (W&I) Division Headquarters in
Atlanta, Georgia, and at the IRS Agency-Wide Shared Services (AWSS) function and
Modernization and Information Technology Services (MITS) organization Headquarters in
Washington, D.C., during the period May through December 2005. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
 Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
                                                                                                         Page 5
                                    The Taxpayer Assistance Center
                               Closure Plan Was Based on Inaccurate Data




                                    Results of Review

The Taxpayer Assistance Center Closure Model Consolidates Key
Management Information Into a Single Database
For the first time, the IRS has a single database housing key management information for each of
the 400 TACs, including information such as geographic location, staffing costs, facilities costs,
workload, and demographics. Since the IRS reorganized in October 2000 and the Field
Assistance Office, which is responsible for the TAC Program, was formed, the IRS has not had
key management information readily available in a format that could be used to make sound
business decisions.
The retrieval and consolidation of key management information into a single database addresses
a significant operational weakness previously reported by the TIGTA in 2005.6 We reported
that, since the creation of the Field Assistance Office in October 2000, key management
information used to make decisions and support changes in the TAC Program is either absent or
based on incomplete data. The lack of accurate and complete management information hinders
the IRS’ ability to make appropriate decisions when determining the locations and services it
provides to taxpayers seeking face-to-face assistance. Our report further noted that the
management information system does not track costs by TAC and does not include operating
costs, such as rent, utilities, or equipment.

The Model was developed to allow for refinements and enhancements
The Model was built using off-the-shelf spreadsheet software. The Model uses formulas based
on specific criteria that allow for adjustments, including changing the weighting given to the
different components and subcomponents. Refinements and enhancements can also be easily
made, including the addition and deletion of data and components or subcomponents.
For example, when the Model was initially run to identify potential TACs for closure, the IRS
weighted each of the 5 main components equally (20 percent). However, after running the
Model, the IRS realized the components were not weighted to ensure balanced delivery of
taxpayer assistance. This resulted in the IRS applying different weighting to the five main
components (see Figure 1 for the five main components and associated weighting).
In addition, although the Model was initially developed to be an objective, data-driven process, it
allows subjectivity to be entered into the process. For example, to further refine the

6
 The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
                                                                                             Page 6
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data



identification of those TACs to be closed, the IRS injected 3 business rules: ensuring a
significant office presence would remain in the top 35 metropolitan areas, ensuring no State
would lose more than one-half of its TACs, and ensuring no TACs in Alaska and Hawaii would
be closed. This flexibility should allow the IRS to maintain the Model for future analyses and
could serve as a much-needed decision-making tool for the Field Assistance Office.

Data Discrepancies Resulted in the Inability to Correctly Select
Taxpayer Assistance Centers for Closure and the Inability to
Accurately Determine Cost Savings
Although the structure of the Model was sound, not all data used to populate the subcomponents
were accurate or the most current data available, and the data used in some subcomponents were
based on estimates and projections instead of actual data currently available. This affected the
scores the Model calculated for each TAC and, ultimately, the ranking and overall selection of
TACs for closure.
To test the reliability of the data and the results of the Model, we systematically selected7
60 of the 400 TACs8 and validated all data subcomponents for each of these TACs. We then
reran the Model using the data based on our verification for the 60 TACs. The overall scores for
each of the 60 TACs changed. We did not validate data for the remaining 340 TACs and
therefore cannot determine if validating all data for all 400 TACS would affect the overall
ranking of the TACs and/or the overall selection of which TACs are to be closed. However,
results from validating the data for the 60 TACs show sufficient discrepancies to raise concerns
about using the results to select which TACs to close and to determine the associated cost
savings that might be achieved.
For example, after the Model was originally run, all 400 TACs were scored and ranked, and the
business rules were applied, the IRS identified 68 TACs that, if closed, would achieve the IRS’
targeted savings of $45 million to $55 million. Each TAC selected for closure had a cumulative
score higher than 154.83. For the 60 TACs sampled, we validated the data and, using the Model,
rescored them. Using 154.83 as the cutoff score, we determined the scores for 10 (17 percent) of
the 60 TACs included in our sample changed to either above or below the cutoff score, thus
raising the possibility that these TACs had been incorrectly identified to be closed or to remain
open. Figure 2 shows that, for the 60 TACs sampled, scores for 5 TACs scheduled to be closed
(Reference Numbers 24, 26, 32, 43, and 58) changed from above 154.83 to below 154.83 and
scores for 5 TACs scheduled to remain open (Reference Numbers 3, 10, 36, 54, and 56) changed
from below 154.83 to above 154.83. For two TACs (Reference Numbers 4 and 51), although the

7
  Systematic sampling involves using a random starting, where “nth” record is chosen for selection. “N” equals the
number in the population divided by the number in the sample.
8
  The systematic sample included selecting 30 TACs from those to be closed and 30 TACs from those to remain
open. Appendix VI contains a list of the 60 TACs in our sample.
                                                                                                            Page 7
                                    The Taxpayer Assistance Center
                               Closure Plan Was Based on Inaccurate Data



IRS scores were over the cutoff, the TACs were to remain open because they met the criteria of
one of the business rules.
                        Figure 2: Comparison of Cumulative Scores
                               Cumulative Score                                   Cumulative Score
                                              Change                                             Change
           Reference    Per       Per                      Reference    Per        Per
            Number     Model    TIGTA Numeric Percentage    Number     Model      TIGTA Numeric Percentage
               1         164.52   167.65  -3.13   -1.90%      31         194.67     170.41  24.26   12.46%
               2         161.51   162.69  -1.18   -0.73%      32         155.86     151.08   4.78    3.07%
               3         153.28   159.24  -5.96   -3.89%      33         171.64     178.24  -6.60   -3.85%
               4         167.08   145.84  21.24   12.71%      34         152.47     147.64   4.83    3.17%
               5         146.10   154.82  -8.72   -5.97%      35         162.27     161.63   0.64    0.39%
               6         156.21   173.22 -17.01  -10.89%      36         151.90     178.92 -27.02  -17.79%
               7         156.67   164.34  -7.67   -4.90%      37         100.35     120.00 -19.65  -19.58%
               8         171.75   158.37  13.38    7.79%      38         147.16     140.76   6.40    4.35%
               9         166.16   169.46  -3.30   -1.99%      39         135.01     141.37  -6.36   -4.71%
              10         140.81   155.52 -14.71  -10.45%      40         141.50     147.52  -6.02   -4.25%
              11         131.02   139.82  -8.80   -6.72%      41         113.34     124.51 -11.17   -9.86%
              12         137.61   144.95  -7.34   -5.33%      42         148.93     149.52  -0.59   -0.40%
              13         173.29   165.85   7.44    4.29%      43         157.40     151.89   5.51    3.50%
              14         119.99   134.26 -14.27  -11.89%      44         159.38     161.98  -2.60   -1.63%
              15         163.71   167.99  -4.28   -2.61%      45         133.10     140.62  -7.52   -5.65%
              16         154.83   158.01  -3.18   -2.05%      46         151.51     150.22   1.29    0.85%
              17         152.66   154.52  -1.86   -1.22%      47         153.74     133.68  20.06   13.05%
              18         126.36   131.79  -5.43   -4.30%      48         150.80     149.67   1.13    0.75%
              19         174.14   170.21   3.93    2.26%      49         159.24     157.18   2.06    1.29%
              20         162.80   165.95  -3.15   -1.93%      50         145.41     133.76  11.65    8.01%
              21         155.57   157.81  -2.24   -1.44%      51         157.30     191.38 -34.08  -21.67%
              22         129.55   122.86   6.69    5.16%      52         178.77     170.27   8.50    4.75%
              23         139.49   139.07   0.42    0.30%      53         167.41     157.05  10.36    6.19%
              24         163.37   145.25  18.12   11.09%      54         149.95     155.45  -5.50   -3.67%
              25         169.16   177.76  -8.60   -5.08%      55         165.77     160.13   5.64    3.40%
              26         160.31   152.28   8.03    5.01%      56         147.78     161.02 -13.24   -8.96%
              27         148.72   151.79  -3.07   -2.06%      57         159.08     160.79  -1.71   -1.07%
              28         142.83   147.97  -5.14   -3.60%      58         168.44     153.40  15.04    8.93%
              29         159.97   174.27 -14.30   -8.94%      59         155.74     157.76  -2.02   -1.30%
              30         158.51   164.20  -5.69   -3.59%      60         123.01     129.33  -6.32   -5.14%
          Source: TAC Closure Model and results from the TIGTA validation.

Figure 3 illustrates how the scores of the five components and their subcomponents are
calculated and how they changed based on our validation. This example uses the information
relative to the Springfield, Missouri, TAC (Reference Number 24):




                                                                                                             Page 8
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data



                          Figure 3: Example of Scoring Methodology –
                                   Springfield, Missouri, TAC9

                                                                                                  Revised
                                                                                     Score       Score per
                                       Subcomponents for Which Incorrect             per the    the TIGTA
              Component               Data Were Used to Populate the Model           Model      Validation
       Geographic Impact                3 of 5 (60 percent) Subcomponents             22.27        22.13
       Employee Costs Impact           8 of 19 (42 percent) Subcomponents             32.25        29.19
       Facilities Costs Impact         6 of 6 (100 percent) Subcomponents             27.90        15.71
       Workload Impact               All data used in each subcomponent               50.52        50.72
                                     matched the IRS source data; however,
                                     because data discrepancies existed with
                                     regard to other sites and the sites are
                                     ranked against each other, the score of
                                     this component changed.
       Demographic Impact              13 of 14 (93 percent) Subcomponents            30.44        27.50
       Total Scores:                                                                163.3710       145.25
             Note that the final score per the Model is above the cutoff score of 154.83,
             while the revised score per the TIGTA validation is below the cutoff score.
     Source: TAC Closure Model and results from the TIGTA validation.

In addition, data discrepancies affected the IRS’ ability to accurately determine cost savings.
The IRS might have overselected or underselected the number of TACs that needed to be closed
to reach the targeted savings of $45 million to $55 million. For example, costing information
relative to the Springfield, Missouri, TAC, which includes components Facilities Costs Impact
and Employee Costs Impact, were overstated by $179,507. Cost savings per the Model totaled
$649,130, while validated data showed cost savings of $469,623. Therefore, the inclusion of
accurate costing information for all 400 TACs could affect the number of TACs the IRS would
have to select to meet its targeted cost savings. Figure 4 provides the results of the cost savings
from the Model and from our validation.




9
  For the presentation of this example, the scores for each subcomponent per the Model were rounded to two
decimal places. Therefore, the sum of the five subcomponent scores does not equal the overall score as reflected in
the example. The overall score in the example reflects the actual overall score per the Model.
10
   Total does not add exactly due to rounding of individual items.
                                                                                                            Page 9
                                          The Taxpayer Assistance Center
                                     Closure Plan Was Based on Inaccurate Data



                                  Figure 4: Comparison of Cost Savings
                                       Cost                                                  Cost
                                                Change                                                 Change
          Reference                                            Reference
           Number     Per Model Per TIGTA Numeric Percentage    Number     Per Model Per TIGTA Numeric Percentage
              1         $153,921    $109,958 $43,963  28.56%      31        $1,061,121 $1,204,012 -$142,891  -13.47%
              2         $138,655     $97,192 $41,463  29.90%      32        $3,940,744 $3,509,725 $431,019    10.94%
              3         $224,209    $225,436 -$1,227  -0.55%      33        $1,001,576 $1,072,763  -$71,187   -7.11%
              4       $1,301,047  $1,176,507 $124,540  9.57%      34          $130,712    $19,657 $111,055    84.96%
              5         $298,080    $255,508 $42,572  14.28%      35          $130,838    $95,932   $34,906   26.68%
              6         $331,080    $316,222 $14,858   4.49%      36          $670,111   $635,766   $34,345    5.13%
              7         $754,348    $587,994 $166,354 22.05%      37          $301,251   $245,144   $56,107   18.62%
              8         $591,789    $366,821 $224,968 38.01%      38        $1,116,009   $799,803 $316,206    28.33%
              9       $1,600,430  $1,374,715 $225,715 14.10%      39          $213,318   $220,083   -$6,765   -3.17%
             10         $211,211    $183,040 $28,171  13.34%      40          $215,599   $180,225   $35,374   16.41%
             11         $294,856    $183,629 $111,227 37.72%      41          $212,422   $175,666   $36,756   17.30%
             12         $216,252    $159,971 $56,281  26.03%      42          $133,481    $29,377 $104,104    77.99%
             13       $1,151,586  $1,016,375 $135,211 11.74%      43           $53,271   $136,860  -$83,589 -156.91%
             14         $304,047    $256,439 $47,608  15.66%      44          $361,103   $312,784   $48,319   13.38%
             15         $210,918    $127,689 $83,229  39.46%      45          $216,351   $153,281   $63,070   29.15%
             16         $211,598    $166,000 $45,598  21.55%      46          $873,611   $729,438 $144,173    16.50%
             17         $582,233    $591,224 -$8,991  -1.54%      47        $1,050,704   $601,509 $449,195    42.75%
             18         $133,665    $136,584 -$2,919  -2.18%      48        $1,527,425 $1,350,273 $177,152    11.60%
             19         $690,626    $576,670 $113,956 16.50%      49          $312,939   $161,619 $151,320    48.35%
             20         $885,960    $642,611 $243,349 27.47%      50          $293,384   $238,558   $54,826   18.69%
             21         $384,904    $310,698 $74,206  19.28%      51        $1,009,919   $893,343 $116,576    11.54%
             22         $212,013    $145,900 $66,113  31.18%      52        $1,192,215   $969,951 $222,264    18.64%
             23         $205,112    $164,431 $40,681  19.83%      53        $1,014,310   $872,913 $141,397    13.94%
             24         $649,130    $469,623 $179,507 27.65%      54        $1,166,967 $1,193,239  -$26,272   -2.25%
             25         $210,586    $178,943 $31,643  15.03%      55          $130,450    $68,839   $61,611   47.23%
             26         $643,262    $525,978 $117,284 18.23%      56          $306,821   $315,794   -$8,973   -2.92%
             27         $237,492    $149,862 $87,630  36.90%      57          $214,380   $186,857   $27,523   12.84%
             28         $302,631    $300,293   $2,338  0.77%      58          $234,477   $118,953 $115,524    49.27%
             29         $291,658    $260,104 $31,554  10.82%      59          $207,980   $149,705   $58,275   28.02%
             30       $1,132,015    $972,216 $159,799 14.12%      60          $219,762   $141,907   $77,855   35.43%
         Source: TAC Closure Model and results from the TIGTA validation.

Standards for Internal Control in the Federal Government11 require information to be recorded
and communicated to management and others within the entity who need it and in a form and
within a time period that enables them to carry out their internal control responsibilities. For an
entity to run and control its operations, it must have relevant, reliable, and timely
communications relating to internal as well as external events.

The 60-day time period to create the Model hindered its development
In anticipation of a reduction in the 2006 budget for taxpayer assistance, the IRS made the
decision to close a number of TACs. For the IRS to complete the placement or reduction in
force of employees by October 1, 2005, the TACs to be closed had to be identified and planning
for the closures had to start as soon after April 15, 2005, as possible. An Executive Lead

11
     GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                                                Page 10
                                         The Taxpayer Assistance Center
                                    Closure Plan Was Based on Inaccurate Data



Development Team was formed in mid-February 2005 and charged with developing a
data-driven model with specific criteria for determining which TACs to close. The Team was
given the support of a subcontractor and 60 days to build the Model. The 60-day time period
directly related to the decisions made relative to the data used to populate the Model.
The data needed for the Model were gathered from external sources and various functional areas
within the IRS. These functional areas were under similar time constraints. For example, the
IRS employee asked to provide potential rental cost savings was given 2 hours to provide this
information. However, the information was not readily available, and the IRS employee had
only estimates for both the square footage and costs per square foot from which to calculate
potential rental cost savings. In another instance, the IRS employee responsible for providing
workload information was given 1 day to gather the data. Because of these time constraints, the
data included in the Model were not validated before or after being input to the Model.
Factors contributing to the data discrepancies include the following:
•      Use of estimates and projections. The IRS used estimates for 13 of the 51 subcomponents,
       including MITS Costs, Furniture Costs, Length of Rent/Leasing Contract, and the
       subcomponents relating to the number and types of employees at a TAC. For the MITS
       Costs, the IRS assigned an estimated cost based on the size of the TAC, not the recurring cost
       for information technology assigned to each employee. TIGTA auditors worked with the
       responsible organizations within the IRS to obtain the budgeted per-employee recurring
       MITS Costs of $2,733 per person and then multiplied this per-employee cost by the number
       of employees at the TAC to compute the MITS Costs savings per TAC. For Furniture Costs,
       the IRS attempted to estimate a recurring facility cost per employee. However, the IRS was
       unable to provide the data or the computation to support the estimates. Based on the inability
       to provide this information, the IRS agreed that this subcomponent should not have been
       included in the Model and should not be used in determining site closure selection and cost
       savings.
       For those categories relating to the number and types of employees, the IRS used the number
       and types of employees based on actual employees working at the beginning of
       Fiscal Year 2005 and projections for the 2005 Filing Season.12 To accurately determine the
       number and types of employees, we identified the specific employees assigned to a TAC per
       the Employee Service Record Report (ESRR) provided by the Field Assistance Office and
       then confirmed the number and types of employees via physical verification while
       conducting TAC site visits. The ESRR was available for use at the time the Model was
       populated.




12
     The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 11
                                    The Taxpayer Assistance Center
                               Closure Plan Was Based on Inaccurate Data



•    Use of data that were not the most current available. The IRS used data that were not the
     most current available for 3 of the 51 subcomponents, including Number of Returns Filed by
     Zip Code and Number of EITC [Earned Income Tax Credit] Returns Filed by Zip Code. The
     IRS used Tax Year 2002 data to compute the values associated with these subcomponents.
     We used Tax Year 2003 data, which were the most current information available at the time
     the IRS populated the Model.
     The IRS used Fiscal Year 2004 information when determining the values for Modernization
     Efforts Applied.13 This resulted in the IRS not including all TACs that had been modernized
     during the period September 2004 to April 2005. For example, of the 60 TACs we sampled,
     6 (10 percent) had been modernized; however, the Model showed the 6 TACs had not been
     modernized. The IRS estimates the costs to modernize a TAC range from $124,000 to over
     $360,000, depending on the size of the TAC. For the subcomponent, Modernization Efforts
     Applied, the IRS assigns a low probability of selection for closure to those TACs that have
     been modernized.
•    Use of averages. The IRS used averages for 6 of the 51 subcomponents, when in 4 instances
     actual figures could have been obtained. These four subcomponents included Average
     Salary, Space Usage in Square Feet, Total Rent/Leasing Cost, and Square Footage Costs.
     When the IRS computed average salaries, locality pay was not included. Locality pay ranges
     from 11.75 percent to 26.39 percent of an employee’s salary, depending on where the
     employee works. To determine employees’ salaries, we researched the actual salaries of the
     specific employees assigned to a TAC based on the ESRR provided by the Field Assistance
     Office.
     To compute the Space Usage in Square Feet and Square Footage Costs, the IRS used the
     number of employees assigned to a TAC to assign a size to a TAC – small, medium, or large.
     Based on the TAC size, an average square footage and cost per square foot was applied. To
     determine the actual square footage costs, TIGTA auditors reviewed monthly rental bills
     providing the cost per square foot and, with AWSS function employees, physically measured
     each of the 60 TACs included in our sample.
     In addition, the Model did not include information as to whether the space occupied by a
     TAC could be released and, if so, what costs may be involved in the release. In many
     instances, Federal Government agencies incur a cost to revise previously occupied space to a
     condition that can be released back. For example, subsequent to the TAC closure
     announcement, the AWSS function determined whether the space occupied by the 68 TACs
     scheduled to be closed could be released and whether there would be costs involved in the
     release. The AWSS function determined the space occupied by 15 (22 percent) of the
     68 TACs could not be released. Reasons the space for the 15 TACs could not be released

13
 Refers to whether a TAC has been remodeled to provide adequate space to accommodate customer traffic,
modernized workstations, technology enhancements, and privacy and security.
                                                                                                    Page 12
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data



     included noncancelable leases and the fact that the location of the TAC served as the main
     entrance to offices for other IRS functions. Of the remaining 53 of 68 TACs, 48 would
     require revisions to the space prior to its being released. The IRS estimates revision costs
     will total approximately $4 million, with the per-TAC revision cost ranging from $1,190 to
     $425,332.
     For the 60 TACs TIGTA auditors visited, AWSS function representatives stated the space for
     19 (32 percent) could not be released. Reasons for nonrelease were similar to those cited
     above.
•    Inconsistency in the calculation approach. Only 2 of the 14 subcomponents within the
     main component Demographic Impact involved inconsistent use of a geographic area in the
     calculation.14 The first subcomponent involving an inconsistent approach is the
     Percent Unemployed by Zip Code. This subcomponent was actually the percentage of
     unemployment per the State in which the TAC is located. IRS employees responsible for
     creating the Model noted that computing the percentage of unemployment by geographic
     area would have required much more time than taking the per-State figure. The second
     subcomponent involving an inconsistent approach is the Income Level by Zip Code. This
     subcomponent was actually the income level for the zip code where the TAC was located.
     IRS employees responsible for creating the Model could not explain why a geographic area
     was not used.
•    Error in associating zip codes with the nearest TAC. An error resulted when the IRS
     combined the results to associate the zip codes with a specific TAC because two different
     programs were used to compute latitude and longitude. The two programs used different
     geographical points within each zip code.
     Associating zip codes with the nearest TAC allowed the IRS to analyze data based on a
     geographic area. The IRS assumed that associating zip codes with the closest TAC would
     present the population of individuals most likely to seek assistance at that TAC. Two
     separate programs were used to assign latitude and longitude coordinates to zip codes. The
     IRS W&I Division Research function determined the latitude and longitude coordinates for
     the zip code in which each of the 400 TACs is located. The IRS Office of Program
     Evaluation Risk Analysis (OPERA) determined the latitude and longitude for the remaining
     zip codes nationwide.
     For consistency purposes, the OPERA recomputed the latitude and longitude for all zip codes
     and reassociated the zip codes with the nearest TAC. As a result, 857 zip codes were
     reassociated with TACs different from the ones used when the Model was first run. When


14
  Values for these subcomponents used the zip codes associated with the closest TAC. The IRS performed a data
analysis that associated zip codes nationwide with the closest TAC to create a potential geographic area that a
particular TAC may serve.
                                                                                                        Page 13
                                    The Taxpayer Assistance Center
                               Closure Plan Was Based on Inaccurate Data



     we reran the subcomponent calculations using the revised associated zip codes, the
     reassociation created changes to the values in those subcomponents.

The Quality of Taxpayer Assistance Center Workload Data and the
Absence of Customer Information Diminish the Effectiveness of the
Model to Identify Taxpayer Assistance Centers for Closure
Prior TIGTA audits have raised concerns regarding the reliability of Field Assistance Office
management information as a basis for making business decisions.15 In 2005, we reported that,
since the creation of the Field Assistance Office in October 2000, key management information
used to make decisions and support changes is either absent or based on incomplete data.
Improved management information is needed to help the Field Assistance Office move toward
its future goals.
In addition, although a number of studies have been conducted by the W&I Division to identify
its present and future customer base, the Field Assistance Office has not recently conducted
similar studies to identify the specific characteristics of customers who seek face-to-face
assistance as well as the services they desire. As a result, the Model does not include
demographics of IRS customers. The majority of the Model’s demographics are based on United
States Census Bureau data. The Model includes the total number of tax returns filed on paper
and electronically. However, the IRS did not include in the Model either the filing
characteristics of taxpayers that live in the geographic areas of the TACs or the demographics of
taxpayers that actually sought account assistance at the TACs.

Data captured on the Field Assistance Office’s management information system
are not always reliable
The IRS acknowledges that the Field Assistance Office management information system cannot
be relied upon for timely, accurate workload performance information due to the manual process
of recording taxpayer visits. In addition, the Field Assistance Office current management
information system does not collect the total number of services provided to taxpayers; it
captures only the most significant service provided to each taxpayer. In cases where multiple
services are provided to the same taxpayer, guidelines direct TAC employees to record the
service they believe was the most significant provided to the taxpayer. This is usually based on
the amount of time spent assisting the taxpayer with a specific service.




15
  Trends in Customer Service in the Taxpayer Assistance Centers Continue to Show Procedural Causes for
Inaccurate Answers to Tax Law Questions (Reference Number 2003-40-158, dated August 2003) and The
Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference Number 2005-40-110,
dated July 2005).
                                                                                                  Page 14
                                       The Taxpayer Assistance Center
                                  Closure Plan Was Based on Inaccurate Data



IRS studies have identified that TAC employees use incorrect closing codes when documenting
the type of assistance provided to taxpayers. Testing conducted during visits to the 60 TACs
sampled in this review confirmed that both inaccuracies and inconsistencies exist when TAC
employees record closing codes documenting the actions taken when assisting customers. For
example:
•    Employees incorrectly recorded tax returns received and stamped in the categories of
     Customer w/Form Contacts and Account Work/Notices, and in one TAC each employee
     recorded the receipt and stamping in a different category.
•    Employees recorded the receipt of Heavy Highway Vehicle Use Tax Returns (Forms 2290)
     in the categories of Tax Law Question, Account Work/Notices, Return Preparation, or Other
     Field Assistance Contacts. At some TACs, the receipt of a Form 2290 was not recorded at
     all. Field Assistance Office procedures require this action to be recorded under Other Field
     Assistance Contacts.
•    Employees in one TAC recorded each IRS form handed out as a contact, while in other
     TACs only one contact was recorded regardless of the number of forms provided to a
     taxpayer. Field Assistance Office procedures require one contact to be recorded regardless of
     the number of forms provided.
The Government Performance and Results Act of 199316 directs Federal Government agencies to
focus on their missions and goals and provides guidance on how to achieve those goals and how
to improve their structural organizations and business processes. Performance measures need to
be based on program-related characteristics and performance data and must be sufficiently
complete, accurate, and consistent. Performance data must be used to improve organizational
processes, identify performance gaps, and set improvement goals.
The Field Assistance Office’s management information system does not provide an adequate
picture of all services provided at the TACs. Specifically, not all services are captured, services
are inconsistently captured, and for some services offered there is no means by which to identify
the specific customer to whom the service was provided (e.g., customers that obtained tax law
and tax forms assistance). In response to our prior report,17 IRS management agreed that
improving their management information system is critical to achieving improved operational
performance. The Field Assistance Office is developing a web-based Field Assistance Office
Management Information System (FAMIS), which will provide management with critical
program planning and control information at the local and national levels while also reducing



16
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
17
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
                                                                                                              Page 15
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data



taxpayer burden by managing wait times more efficiently. The FAMIS will be tested in Fiscal
Year 2006 and deployed in all TACs during Fiscal Year 2007.

Demographics based on IRS customer information were not included in the
Model
IRS research performed since 1999 has focused primarily on learning about customer
expectations and ways to improve the taxpayer experience when visiting the TACs. Taxpayers
who need or desire face-to-face assistance have not been involved in determining what services
are offered at the TACs. Management indicated identification of the services offered at the
TACs has been based primarily on input from Field Assistance Office field management. Other
factors affecting the services provided include internal priorities, resource demands, and shifts in
the IRS’ customer service perspective.
However, the IRS does have available taxpayer account and compliance data that could be used
to better identify the characteristics of potential customers and those customers that have actually
sought account assistance at a TAC. For example, the Model includes demographics of
individuals in a geographic area18 based on information from the 2000 Census and IRS tax return
data. Figure 5 illustrates the different results when demographics are included based on different
data. For 10 TACs in our sample, it compares 5 key demographics using 3 different data sources
labeled “Model,” “Actual,” and “Potential.”
•    “Model” includes data from the Model, including corrected information validated by the
     TIGTA.
•    “Actual” includes data relating to taxpayers that actually obtained assistance with their tax
     accounts at a particular TAC.
•    “Potential” includes data relating to taxpayers that filed their tax returns and lived in the
     geographic area of a TAC.




18
  The IRS performed a data analysis that associated zip codes nationwide with the closest TAC to create a potential
geographic area that a particular TAC might serve.
                                                                                                          Page 16
                                                The Taxpayer Assistance Center
                                           Closure Plan Was Based on Inaccurate Data



                      Figure 5: Comparison of IRS Customer Key Demographics

                                                                                                                                     Population With
                                                                          Percentage of Taxpayers                                Household Income Less
                                                                           With Unemployment        Percentage of Age Greater     Than $35,000, and Age
              Population Impact by Zip Code    Income Level by Zip Code           Income               Than or Equal to 65            Less Than 65
  Reference             Customers                     Customers                 Customers                  Customers                    Customers
   Number       Model      Actual Potential     Model Actual Potential    Model Actual Potential    Model Actual Potential       Model Actual Potential
      1           113,542      359    44,534   $20,136 $34,079 $34,044    4.20% 4.74%       5.55%   18.75% 0.06% 22.12%          16,805    161     23,312
      2            85,907      481    30,944   $19,932 $33,442 $37,072    4.20% 5.20%       5.98%   19.45% 0.07% 24.51%           9,410    238     14,546
      3           364,218   4,416 148,793      $21,898 $41,489 $104,129   5.80% 10.39% 10.94%       14.62% 0.28% 18.37%          54,457 2,182      73,854
      4         1,969,189    9,906 906,548     $28,390 $42,973 $58,125    5.80% 9.68%       8.08%   11.86% 0.69% 15.66%         199,477 4,953 381,354
      5           569,582    3,716 215,415     $26,532 $40,868 $47,781    5.80% 5.79% 15.04%         9.42% 0.23% 13.26%          41,109 1,858 100,264
      6           208,704    4,574    85,890   $33,888 $51,716 $69,033    5.80% 13.25%      4.20%   13.06% 0.11% 19.09%          18,540 2,080      36,091
      7           728,115    3,719 319,247     $31,051 $66,831 $51,811    5.80% 8.95%       8.55%   13.77% 0.11% 18.25%          61,764 1,458 128,490
      8           876,193    2,667 377,148     $25,682 $38,338 $52,041    5.10% 6.37%       5.89%   11.06% 0.16% 14.67%          99,621 1,423 181,444
      9           923,631    8,158 437,772     $32,819 $42,230 $56,702    4.30% 13.73%      9.72%   13.89% 0.54% 16.15%          77,865 5,009 173,367
     10           316,703   4,458 150,471      $61,760 $72,652 $140,984   4.30% 7.99%       6.59%   13.07% 0.18% 16.68%          15,514 1,833      50,061

Source: TAC Closure Model; the IRS’ association of zip codes with the nearest TAC; and results from the TIGTA
extract and analysis of data from the United States Census Bureau, the IRS Returns Transaction File,19the IRS Treasury
Integrated Management Information System,20 and the National Account Profile.21

   The IRS could also analyze data from electronic systems used by TAC employees to assist
   taxpayers with compliance issues. We obtained and analyzed extracts from two of these systems
   – the Automated Collection System22 and the Integrated Case Processing System.23 Results
   include when assistors serve taxpayers that came into the TACs voluntarily for taxpayer
   assistance as well as taxpayers that came into the TACs to address compliance issues.24 Results
   are shown nationwide, but the data can be analyzed on a per-TAC basis.
   •    For Fiscal Year 2004, 616 TAC employees25 accessed the Automated Collection System
        20,515 times to assist 13,768 taxpayers. Actions taken included changing a follow-up date to
        provide a taxpayer more time to resolve a compliance issue, adding a levy,26 deleting a levy
        source, and updating a taxpayer’s financial information.



   19
      A computer system that receives individual tax return data.
   20
      A computer system that supports IRS payroll and personnel processing and reporting requirements.
   21
      A database updated weekly from data sent to the IRS by the Social Security Administration. It is used by the IRS
   to validate taxpayer information reported on individual income tax returns.
   22
      A computerized inventory system that maintains balance-due accounts and return delinquency investigations.
   23
      A computerized system that combines the functions of numerous separate systems into one “integrated” system
   and gives immediate access to most taxpayer information, allowing an employee to respond to a taxpayer inquiry
   and resolve most issues.
   24
      Assistors now contact taxpayers that live in the same geographic areas of their respective TACs and ask them to
   visit the TACs to address compliance issues.
   25
      Accesses to the Automated Collection System should increase in the coming years as more employees are given
   access to the System.
   26
      A levy is a legal seizure of property to satisfy a tax debt.
                                                                                                                                     Page 17
                                    The Taxpayer Assistance Center
                               Closure Plan Was Based on Inaccurate Data



•    For Fiscal Year 2004, 1,780 TAC employees accessed the Integrated Case Processing System
     971,390 times to assist 236,675 taxpayers. Actions taken included adding history notes to
     taxpayer accounts describing the nature of the contact, actions taken, and instructions given;
     reviewing information relative to a taxpayer’s payment history; and updating a taxpayer’s
     account as a result of securing a delinquent tax return(s).

The effect of TAC closures on taxpayers
The IRS cannot determine the effect TAC closures might have on taxpayer compliance. The IRS
does not currently have the means to capture all interactions between a TAC employee and a
taxpayer to determine why the taxpayer visited the TAC, what service he or she received, and,
most importantly, the effect the service or action has on the taxpayer’s future compliance. In
addition, as previously reported,27 although the IRS does have management information to
determine to some degree which taxpayers visit TACs, the information is not always reliable.
Because reliable information was not available, we were unable to determine the effect TAC
closures might have on compliance.
The Model represents the IRS’ first step in developing a much-needed Service Delivery
Assessment Tool that can be used as the basis for making informed business decisions relative to
the TAC Program. However, the effectiveness of the tool is directly impacted by the accuracy
and reliability of the data used to populate the tool. In addition, as cited in our 2005 report, a
Service Delivery Plan is needed to outline the short- and long-term direction of the TAC
Program based on business cases and customer input. The IRS agrees, and the Field Assistance
Office is currently exploring options to obtain customer input in the development of its Service
Delivery Model. When available, this should provide the IRS with some perspective on the
effect TAC services have on its customers.
The Senate Committee on Appropriations asked us to contact external organizations whose
constituents use the services of the TACs to assess the potential impact the TAC closures might
have on them. The organizations contacted included those suggested by the Senate Committee
on Appropriations, National Taxpayer Advocate, and IRS Stakeholder Partnerships, Education
and Communication function. See Appendix VII for a list of groups contacted.
•    Eight of 11 stakeholder groups believe closing the TACs may make it harder for their
     constituents to stay compliant with tax laws and file tax returns.
•    Ten of 11 stakeholder groups believe their constituents would prefer not to contact the IRS
     toll-free telephone number.
•    All 11 stakeholder groups believe their constituents are not currently likely to use alternative
     methods, such as the Internet or email, to obtain the services they need.

27
 The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
                                                                                             Page 18
                                  The Taxpayer Assistance Center
                             Closure Plan Was Based on Inaccurate Data



The IRS has recently undertaken a large-scale study that focuses on improving taxpayer service.
IRS officials advised us the study will follow a structured approach utilizing available research to
understand taxpayers’ needs and preferences. The study will identify a strategic direction to best
balance those needs with existing business constraints. Nevertheless, prior to making decisions
on closing any TACs, the IRS should ensure it knows what taxpayers visit the TACs for
assistance and why, so it can determine the impact on these taxpayers and ensure alternative
service delivery channels are effective in meeting the needs of these taxpayers.

Recommendations
The Commissioner, W&I Division, should:
Recommendation 1: Ensure data used in the Model or any decision-making tool are accurate
and reliable and have been validated before using them to make decisions regarding the TAC
Program.
       Management’s Response: IRS management agreed with this recommendation and
       will ensure data used in the Model or any decision-making tool as it relates to the TAC
       Program are accurate and verified.
Recommendation 2: Include in the Model or any decision-making tool data to identify
customer characteristics and capture customer input to effectively measure the impact any results
might have on taxpayer service and compliance.
       Management’s Response: IRS management agreed with this recommendation. Data
       and research are currently being collected for the Taxpayer Assistance Blueprint that will
       baseline customer characteristics and needs. The Taxpayer Assistance Blueprint will be a
       5-year plan that outlines what services the IRS should provide, as well as how to improve
       services for taxpayers by leveraging reliable data on taxpayer and partner needs and
       preferences. Phase I will provide a baseline of current IRS services, taxpayer and partner
       needs and preferences, service industry benchmarking, and strategic service directions.
       Phase II will validate the service recommendations through extensive primary research
       with taxpayers and will identify key operational and resource delivery requirements.
       These data will be used, updated, and maintained for use in the Model or other decision-
       making tools to assist the IRS in making informed decisions regarding all of its taxpayer
       services.




                                                                                           Page 19
                                       The Taxpayer Assistance Center
                                  Closure Plan Was Based on Inaccurate Data



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the Taxpayer Assistance Center (TAC) Closure
Model (the Model) effectively achieved the Internal Revenue Service’s (IRS) goal of identifying
which TACs to close.1
To address our overall objective, we used various electronic files from the IRS. We did not
validate these files.
    •    United States Census 2000 file, which provides characteristics based on the 2000 Census.
         The information was originally obtained by the IRS from the United States Census
         Bureau. This information was used to confirm statistics included in the Model.
    •    Integrated Case Processing System2 extract identifying TAC employee accesses and
         actions taken on this System during Fiscal Year 2004.
    •    Zip code association file,3 which provided the results of the IRS associating zip codes
         nationwide with the closest TAC site. We used this information to confirm statistics
         included in the Model.
In addition, we used the following electronic files housed at the Treasury Inspector General for
Tax Administration’s (TIGTA) Data Center Warehouse. The files and validations performed
include:
    •    Returns Transaction File4 – determined if all records were received by the TIGTA and
         verified a sample of the fields for accuracy.




1
  IRS employees that work in the TACs provide face-to-face assistance to customers by interpreting tax laws and
regulations, preparing certain individual tax returns, resolving inquiries on taxpayer accounts, accepting payments,
and providing various other services designed to minimize the burden on taxpayers in satisfying their tax
obligations. The IRS currently has 400 TACs. To determine which TACs to close with a minimal impact to the
taxpaying public, the IRS and an independent contractor used an industry-standard software package and developed
the TAC Closure Model.
2
  A computerized system that combines the functions of numerous separate systems into one “integrated” system
and gives immediate access to most taxpayer information, allowing an employee to respond to a taxpayer inquiry
and resolve most issues.
3
  We identified a problem resulting from the use of two different software packages when associating zip codes
(see page 13).
4
  A computer system that receives individual tax return data.
                                                                                                           Page 20
                                      The Taxpayer Assistance Center
                                 Closure Plan Was Based on Inaccurate Data



      •   Automated Collection System5 – determined if all records were received by the TIGTA
          and verified the data values were correctly extracted from the original file and the values
          looked reasonable. This was accomplished by printing out a subset of the records and
          reviewing the data.
      •   National Account Profile6 – reviewed fields to identify any obvious problems with the
          data and selected a number of records to compare against the Integrated Data Retrieval
          System7 to ensure the data matched.
      •   Treasury Integrated Management Information System8 – determined if all files were
          received by the TIGTA and reviewed the data fields to ensure they were in the expected
          formats.
To accomplish our objective we:
I.        Assessed the development of the Model, including the completeness and accuracy of the
          data.
          A. Interviewed IRS officials to determine the goal/purpose of the Model; how it was
             developed; and what it was to achieve, including the cost savings the IRS wanted to
             achieve.
          B. Interviewed the independent contractor to discuss the development of the Model,
             including background, logic, and data sources.
          C. Determined the basis for the subcomponents used in the Model, including how the
             subcomponents were selected and weighted.
          D. Determined what factors were considered when using the business rules and the basis
             for the rules.
          E. Determined what validation was completed on the data used in the Model.
          F. Met with the appropriate Congressional committees to obtain Congressional
             concerns.
II.       Determined if the Model structure and methodology were sound to provide consistent,
          reliable results.



5
  A computerized inventory system that maintains balance-due accounts and return delinquency investigations.
6
  A database updated weekly from data sent to the IRS by the Social Security Administration. It is used by the IRS
to validate taxpayer information reported on individual income tax returns.
7
  An IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
8
  A computer system that supports IRS payroll and personnel processing and reporting requirements.
                                                                                                          Page 21
                                        The Taxpayer Assistance Center
                                   Closure Plan Was Based on Inaccurate Data



           A. Consulted with a statistician to determine if the formulas and structure were sound
              and logical.
           B. Reran the Model with the business rules to determine if the results matched those of
              the IRS.
           C. Determined if the data used in the Model were accurate and, if not, if the inaccuracies
              affected the results.
III.       Determined if all subcomponents of the Model were appropriate and, if not, eliminated
           them from the Model.
           A. Determined which data subcomponents could be validated by 100 percent testing and
              which would be tested and validated through sampling.
           B. Consulted with a statistician to determine the appropriate sampling methodology to
              select those TACs to be included in our validation. Based on the recommendation of
              the statistician, we used systematic sampling, which included:
               1. Selecting 30 TACs from the 68 TACs selected by the IRS for potential closure by
                  dividing 68 by the sample size of 30 and obtaining 2.27. We randomly selected a
                  number between 1 and 2.27 for a starting point; the number 2 was selected. We
                  began at the second TAC listed and selected it, added 2.27 to the number 2 for a
                  total of 4.27 and selected the fourth TAC on the list, and repeated the process
                  until 30 of the 68 TACs had been selected.
               2. Selecting 30 TACs from the 332 TACs to remain open by dividing 332 by the
                  sample size of 30 and obtaining 11.07. We ran a random number generator until a
                  random number between 1 and 11.07 resulted and obtained the random number
                  9.05. We began at the ninth TAC on the list and selected it, added 11.07 to 9.05
                  for a total of 20.12 and selected the 20th TAC on the list, and repeated the process
                  by rounding to a whole number until 30 of the 332 TACs had been selected.
           C. Visited the 60 selected TACs9 and met with Field Assistance Office, Agency-Wide
              Shared Services function, and Modernization and Information Technology Services
              organization personnel to obtain costs for releasing and removing or rebuilding
              computer and technology equipment.
           D. Completed data analysis to validate the remaining data subcomponents for the
              60 selected TACs to determine if the data in the Model appeared reasonable or
              accurate.
           E. Computed employee costs for the 60 TACs by verifying the employees currently
              employed at the TACs at the time of our visits; by obtaining from the IRS the

9
    Appendix VI contains a list of the 60 TACs in our sample.
                                                                                              Page 22
                               The Taxpayer Assistance Center
                          Closure Plan Was Based on Inaccurate Data



         Employee Service Record Reports, which detail actual salaries for the employees
         employed at the TACs; and by working with IRS contacts to determine what was
         included in the average benefits figure included in the Model.
      F. Reran the Model to determine if the scores and rankings changed.
      G. If our results differed from IRS results, reported results to the IRS. We discussed
         with the IRS the expected cost savings and determined what TACs would be closed to
         achieve those cost savings.
IV.   Identified additional data subcomponents, if any, that should have been included in the
      Model.
      A. Met with IRS personnel to discuss factors considered for the Model.
      B. Identified the workload data that were not included in the Model by analyzing data
         from various IRS sources. For workload data, we obtained and analyzed information
         from IRS’ Automated Collection System and Integrated Case Processing System. We
         followed up on any anomalies.
      C. Met with the National Taxpayer Advocate to discuss any concerns regarding TAC
         closures.
      D. Interviewed appropriate IRS personnel to discuss any additional data to be considered
         for inclusion in the Model.
V.    Assessed the potential effect the TAC closings may have on taxpayers. This information
      was requested by the Senate Committee on Appropriations staff.
      A. Determined the volumes of TAC customers and the services provided to them to
         validate the IRS management information and to determine the effect the closures
         might have on taxpayers.
      B. Determined the characteristics of taxpayers in the areas near the TACs by analyzing
         the data on the IRS’ Returns Transaction File.
      C. Obtained and reviewed IRS-developed research reports regarding taxpayers and the
         services offered by the TACs.
      D. Met with external stakeholders to determine their concerns and what services they
         value or need from the TACs (see Appendix VII for a list of stakeholders contacted).
VI.   Determined costs associated with closing the selected TACs.




                                                                                        Page 23
                               The Taxpayer Assistance Center
                          Closure Plan Was Based on Inaccurate Data



                                                                           Appendix II

                Major Contributors to This Report

Michael R. Phillips, Deputy Inspector General for Audit
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs) (Designee)
Augusta R. Cook, Director
Scott MacFarlane, Director
Paula W. Johnson, Audit Manager
Frank W. Jones, Audit Manager
Russell P. Martin, Audit Manager
Kenneth L. Carlson, Senior Auditor
Pamela M. DeSimone, Senior Auditor
Lena M. Dietles, Senior Auditor
Deborah L. Drain, Senior Auditor
Jackie E. Forbus, Senior Auditor
Robert J. Howes, Senior Auditor
Sharon R. Shepherd, Senior Auditor
Grace M. Terranova, Senior Auditor
Jerome S. Antoine, Auditor
Robert A. Baker, Auditor
Jean M. Bell, Auditor
Jerry G. Douglas, Auditor
Roberta A. Fuller, Auditor
Andrea M. Hayes, Auditor
Patricia A. Jackson, Auditor
Mary L. Keyes, Auditor
Sylvia D. Sloan-Copeland, Auditor
Geraldine S. Vaughn, Auditor
Lindsey J. Cabral, Auditor Intern
James M. Allen, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Layne D. Powell, Information Technology Specialist
Jeffrey E. Williams, Information Technology Specialist




                                                                                   Page 24
                              The Taxpayer Assistance Center
                         Closure Plan Was Based on Inaccurate Data



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services Consolidation SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance SE:W:CAR:FA
Director, Media and Publications SE:W:CAR:MP
Director, Stakeholder Partnerships, Education, and Communication SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 25
                                           The Taxpayer Assistance Center
                                      Closure Plan Was Based on Inaccurate Data



                                                                                                               Appendix IV

        Nationwide List of Taxpayer Assistance Centers

The following data are from the Internal Revenue Service’s Taxpayer Assistance Center Closure
Model. Employees in the Taxpayer Assistance Centers provide face-to-face assistance to
customers by interpreting tax laws and regulations, preparing certain individual tax returns,
resolving inquiries on taxpayer accounts, accepting payments, and providing various other
services designed to minimize the burden on taxpayers in satisfying their tax obligations. The
68 Taxpayer Assistance Centers the Internal Revenue Service selected for closure are shaded in
grey.
Street Address                 City               State        Street Address                       City               State
801 Tom Martin Drive           Birmingham         Alabama      1332 Anacapa Street                  Santa Barbara      California
202 West Adams Street          Dothan             Alabama      2383 South Professional Parkway      Santa Maria        California
205 South Walnut Street        Florence           Alabama      777 Sonoma Avenue                    Santa Rosa         California
806 Governors Drive            Huntsville         Alabama      4643 Quail Lakes Drive               Stockton           California
1110 Montlimar Drive           Mobile             Alabama      6230 Van Nuys Boulevard              Van Nuys           California
1285 Carmichael Way            Montgomery         Alabama      627 North Akers                      Visalia            California
949 East 36 Avenue             Anchorage          Alaska       185 Lennon Lane                      Walnut Creek       California
101 12th Avenue                Fairbanks          Alaska       2864 South Circle Drive              Colorado Springs   Colorado
3090 Highway 95                Bullhead City      Arizona      600 17th Street                      Denver             Colorado
1633 South Plaza Way           Flagstaff          Arizona      301 South Howes Street               Fort Collins       Colorado
2610 Sweetwater Avenue         Lake Havasu City   Arizona      400 Rood Avenue                      Grand Junction     Colorado
2400 West Dunlap               Phoenix            Arizona      915 Lafayette Boulevard              Bridgeport         Connecticut
210 East Earll Drive           Phoenix            Arizona      131 West Street                      Danbury            Connecticut
1228 Willow Creek Road         Prescott           Arizona      135 High Street                      Hartford           Connecticut
40 West Baseline Road          Tempe              Arizona      150 Court Street                     New Haven          Connecticut
300 West Congress              Tucson             Arizona      2 Shaw's Cove                        New London         Connecticut
2450 South 4th Avenue          Yuma               Arizona      24 Belden Avenue                     Norwalk            Connecticut
35 East Mountain               Fayetteville       Arkansas     Grand Street--14 Cottage Place       Waterbury          Connecticut
4905 Old Greenwood Road        Fort Smith         Arkansas     300 South New Street                 Dover              Delaware
615 South Main Street          Jonesboro          Arkansas     319 North Dupont Highway             Georgetown         Delaware
700 West Capitol               Little Rock        Arkansas     844 King Street                      Wilmington         Delaware
5300 California Avenue         Bakersfield        California   500 North Capitol Street             Washington         District of Columbia
751 Daily Drive                Camarillo          California   921 North Nova Road                  Daytona Beach      Florida
1395 Ridgewood Drive           Chico              California   2891 Center Pointe Drive             Fort Myers         Florida
2345 South 2nd Street          El Centro          California   104 North Main Street                Gainesville        Florida
9350 East Flair Drive          El Monte           California   400 West Bay Street                  Jacksonville       Florida
5104 North Blythe              Fresno             California   124 South Tennessee Avenue           Lakeland           Florida
24000 Avila Road               Laguna Niguel      California   850 Trafalgar Court                  Maitland (Orld)    Florida
501 West Ocean Boulevard       Long Beach         California   129 West Hibiscus Boulevard          Melbourne          Florida
300 North Los Angeles Street   Los Angeles        California   51 South West First Avenue           Miami              Florida
1300 K Street, Suite B         Modesto            California   3300 South West 34th Avenue          Ocala              Florida
1301 Clay Street               Oakland            California   651-F West 14th Street               Panama City        Florida
980 Tahquitz Canyon Way        Palm Springs       California   125 West Romana Street               Pensacola          Florida
850 Industrial Street          Redding            California   7850 South West 6th Court            Plantation         Florida
4330 Watt Avenue               Sacramento         California   7410 South United States Highway 1   Port Saint Lucie   Florida
55 Plaza Circle                Salinas            California   9450 Koger Boulevard                 Saint Petersburg   Florida
290 North D Street             San Bernardino     California   2201 Cantu Court                     Sarasota           Florida
880 Front Street               San Diego          California   227 North Bronough Street            Tallahassee        Florida
450 Golden Gate Avenue         San Francisco      California   3848 West Columbus Drive             Tampa              Florida
55 South Market Street         San Jose           California   1700 Palm Beach Lakes Boulevard      West Palm Beach    Florida
1 Civic Center Drive           San Marcos         California   235 Roosevelt Avenue                 Albany             Georgia
801 Civic Center Drive, West   Santa Ana          California   355 Hancock Avenue                   Athens             Georgia




                                                                                                                          Page 26
                                                   The Taxpayer Assistance Center
                                              Closure Plan Was Based on Inaccurate Data



Street Address                     City               State      Street Address                   City                State
2888 Woodcock Boulevard            Atlanta            Georgia    600 Doctor Martin L King Place   Louisville          Kentucky
401 West Peachtree Street          Atlanta            Georgia    401 Frederica Street             Owensboro           Kentucky
2743 Perimeter Parkway             Augusta            Georgia    2765 Wayne Sullivan Drive        Paducah             Kentucky
3604 Macon Road                    Columbus           Georgia    311 North Arnold Avenue          Prestonsburg        Kentucky
414 North Park Drive               Dalton             Georgia    3508 Government Street           Alexandria          Louisiana
329 Oak Street                     Gainesville        Georgia    2600 Citiplace                   Baton Rouge         Louisiana
600 North Avenue                   Macon              Georgia    423 Lafayette Street             Houma               Louisiana
600 East First                     Rome               Georgia    825 Kaliste Saloom Road          Lafayette           Louisiana
120 Barnard Street                 Savannah           Georgia    921 Moss Street                  Lake Charles        Louisiana
2400 Herodian Way                  Smyrna             Georgia    1401 Hudson Lane                 Monroe              Louisiana
101 Aupuni Street                  Hilo               Hawaii     1555 Poydras Street              New Orleans         Louisiana
300 Ala Moana Boulevard            Honolulu           Hawaii     3007 Knight Street               Shreveport          Louisiana
2050 Main Street                   Wailuku            Hawaii     68 Sewall Street/40 West         Augusta             Maine
550 West Fort Street               Boise              Idaho      324 Harlow Street                Bangor              Maine
1221 West Ironwood Drive           Coeur D Alene      Idaho      217 Main Street                  Lewiston            Maine
1820 East 17th Street              Idaho Falls        Idaho      36 North Street                  Presque Isle        Maine
611 Wilson Avenue                  Pocatello          Idaho      220 Maine Mall Road              South Portland      Maine
301 South Prospect Road            Bloomington        Illinois   190 Admiral Cochrane Drive       Annapolis           Maryland
310-312 West Church Street         Champaign          Illinois   31 Hopkins Plaza                 Baltimore           Maryland
7601 South Kostner                 Chicago            Illinois   201 Thomas Johnson Drive         Frederick           Maryland
5860 West 111th Street             Chicago Ridge      Illinois   1260 Maryland Avenue             Hagerstown          Maryland
306 West Eldorado Street           Decatur            Illinois   8401 Corporate Drive             Landover            Maryland
2001 Butterfield Road              Downers Grove      Illinois   Winchester & Volke Roads         Lavale              Maryland
13 Executive Drive                 Fairview Heights   Illinois   212 West Main Street             Salisbury           Maryland
2060-66 Windish Drive              Galesburg          Illinois   11510 Georgia Avenue             Wheaton             Maryland
8125-35 River Drive                Morton Grove       Illinois   15 New Sudbury Street            Boston              Massachusetts
105 South Sixth Street             Mount Vernon       Illinois   166 Main Street                  Brockton            Massachusetts
300 Hamilton Boulevard             Peoria             Illinois   881 Main Street                  Fitchburg           Massachusetts
3701 East Lake Centre              Quincy             Illinois   247 Stevens Street               Hyannis             Massachusetts
211 South Court Street             Rockford           Illinois   78 Center Street                 Pittsfield          Massachusetts
3101 Constitution Drive            Springfield        Illinois   1250 Hancock Street              Quincy              Massachusetts
2017 South Liberty Drive           Bloomington        Indiana    1550 Main Street                 Springfield         Massachusetts
2525 California Street             Columbus           Indiana    One Montvale Avenue              Stoneham            Massachusetts
4933 Plaza East Boulevard          Evansville         Indiana    120 Front Street                 Worcester           Massachusetts
1415 Directors Row                 Fort Wayne         Indiana    477 Michigan Avenue              Detroit             Michigan
575 North Pennsylvania             Indianapolis       Indiana    815 South Saginaw                Flint               Michigan
620 Morland Drive-Lahr Building    Lafayette          Indiana    678 Front Street Northwest       Grand Rapids        Michigan
233 East 84th Drive                Merrillville       Indiana    1055 West Baraga                 Marquette           Michigan
225 North High Street              Muncie             Indiana    4901 Towne Centre Road           Saginaw             Michigan
100 East Wayne Street              South Bend         Indiana    3241 Racquet Club Drive          Traverse City       Michigan
801 Wabash                         Terre Haute        Indiana    1550 American Boulevard          Bloomington         Minnesota
425 Second Street Se               Cedar Rapids       Iowa       515 West First Street            Duluth              Minnesota
101 West 2nd Street                Davenport          Iowa       1921 Excel Drive                 Mankato             Minnesota
210 Walnut Street                  Des Moines         Iowa       250 Marquette Avenue             Minneapolis         Minnesota
205 South 8th Street               Fort Dodge         Iowa       21 South West Second Street      Rochester           Minnesota
3539 Southern Hills Drive          Sioux City         Iowa       3800 8th Street North            Saint Cloud         Minnesota
201 Tower Park Drive               Waterloo           Iowa       30 East 7th Street               Saint Paul          Minnesota
5799 Broadmoor                     Mission            Kansas     2885 Mccullough Boulevard        Belden              Mississippi
120 Southeast 6th Street           Topeka             Kansas     Third and Sharkey Avenue         Clarksdale          Mississippi
271 West 3rd Street North          Wichita            Kansas     2209 North Fifth Street          Columbus            Mississippi
200 West Professional Park Court   Bowling Green      Kentucky   15521 Oak Lane                   Gulfport            Mississippi
121 West Tenth Street              Hopkinsville       Kentucky   701 Main Street                  Hattiesburg         Mississippi
1500 Leestown Road                 Lexington          Kentucky   100 West Capitol                 Jackson             Mississippi




                                                                                                                   Page 27
                                                      The Taxpayer Assistance Center
                                                 Closure Plan Was Based on Inaccurate Data



Street Address                       City             State           Street Address                             City              State
137 South Broadview                  Cape Girardeau   Missouri        East 3rd and Pendergast                    Jamestown         New York
1122 Town and Country Commons        Chesterfield     Missouri        153 Sawkill Road                           Kingston          New York
111 Corporate Office Drive           Earth City       Missouri        300 Commerce Drive                         New Windsor       New York
3730 South Elizabeth Avenue          Independence     Missouri        290 Broadway - Foley Square                New York          New York
3702 West Truman                     Jefferson City   Missouri        110 West 44th Street                       New York          New York
402 South Main Street, Suite 501     Joplin           Missouri        55 West 125th Street                       New York          New York
5800 East Bannister Road             Kansas City      Missouri        191 Main Street                            Poughkeepsie      New York
201 South 8th Street                 Saint Joseph     Missouri        324 Quaker Road                            Queensbury        New York
1222 Spruce                          Saint Louis      Missouri        518a East Main Street                      Riverhead         New York
3333 South National                  Springfield      Missouri        250 Corporate Place-255 East Avenue        Rochester         New York
2900 Fourth Avenue North             Billings         Montana         10 Richmond Terrace                        Staten Island     New York
220 West Lamme Steet                 Bozeman          Montana         100 South Clinton Street                   Syracuse          New York
Aa 5th Street North *11              Great Falls      Montana         10 Broad Street                            Utica             New York
10 West 15th Street                  Helena           Montana         242 West Nyack Road                        West Nyack        New York
275 Corporate Avenue                 Kalispell        Montana         210 East Post Road                         White Plains      New York
2681 Palmer Street                   Missoula         Montana         151 Patton Avenue                          Asheville         North Carolina
100 Centennial Mall North            Lincoln          Nebraska        6635 Executive Circle                      Charlotte         North Carolina
208 North 5th Street                 Norfolk          Nebraska        3308 Chapel Hill Boulevard                 Durham            North Carolina
300 East 3rd Street                  North Platte     Nebraska        225 Green Street                           Fayetteville      North Carolina
1313 Farnam Street                   Omaha            Nebraska        320 Federal Place                          Greensboro        North Carolina
2001 Broadway                        Scottsbluff      Nebraska        2835 South Charles Boulevard               Greenville        North Carolina
110 City Parkway                     Las Vegas        Nevada          115 5th Avenue Northwest                   Hickory           North Carolina
200 South Virginia Street            Reno             Nevada          4405 Bland Road                            Raleigh           North Carolina
196 Main Street                      Keene            New Hampshire   3904 Oleander Drive                        Wilmington        North Carolina
1000 Elm Street                      Manchester       New Hampshire   251 North Main Street                      Winston Salem     North Carolina
410 Amherst Street                   Nashua           New Hampshire   2911 North 14th Street, Suite 301          Bismarck          North Dakota
80 Daniel Street                     Portsmouth       New Hampshire   657 2nd Avenue North                       Fargo             North Dakota
57 Haddonfield Road                  Cherry Hill      New Jersey      102 North 4th Street                       Grand Forks       North Dakota
100 Dey Place                        Edison           New Jersey      305 17th Avenue Southwest                  Minot             North Dakota
165 Passaic Avenue                   Fairfield        New Jersey      2 South Main Street                        Akron             Ohio
4 Paragon Way                        Freehold         New Jersey      201 Cleveland Avenue Southwest             Canton            Ohio
30 Montgomery Street                 Jersey City      New Jersey      550 Main Street                            Cincinnati        Ohio
5218 Atlantic Avenue                 Mays Landing     New Jersey      1240 East Ninth Street                     Cleveland         Ohio
200 Sheffield Street                 Mountainside     New Jersey      200 North High Street                      Columbus          Ohio
970 Broad Street                     Newark           New Jersey      200 West 2nd Street                        Dayton            Ohio
1 Kalisa Way                         Paramus          New Jersey      401 West North Street                      Lima              Ohio
1719 C Route 10                      Parsippany       New Jersey      180 North Diamond Street                   Mansfield         Ohio
200 Federal Plaza                    Paterson         New Jersey      433 North Summit                           Toledo            Ohio
44 South Clinton Street, 3rd floor   Trenton          New Jersey      9075 Centre Pointe Drive                   Westchester       Ohio
5338 Montgomery Boulevard            Albuquerque      New Mexico      10 East Commerce Street                    Youngstown        Ohio
800 East 30th Street                 Farmington       New Mexico      250 Northwest Franklin Avenue, Suite 301   Bend              Oklahoma
505 South Main                       Las Cruces       New Mexico      601 South Harding                          Enid              Oklahoma
500 North Richardson                 Roswell          New Mexico      300 Country Club Road                      Eugene            Oklahoma
2945 Rodeo Park Drive                Santa Fe         New Mexico      2202 Southwest A Avenue                    Lawton            Oklahoma
Clinton Avenue and North Pearl       Albany           New York        960 Ellendale Drive                        Medford           Oklahoma
49 Court Street                      Binghamton       New York        55 North Robinson                          Oklahoma City     Oklahoma
1200 Waters Place                    Bronx            New York        1645 South 101 Street East Avenue          Tulsa             Oklahoma
625 Fulton Street                    Brooklyn         New York        1220 Southwest Third Avenue                Portland          Oregon
130 South Elmwood Avenue             Buffalo          New York        1660 Oak Street Southeast                  Salem             Oregon
1 Lefrak City Plaza                  Corona           New York        1601 Eleventh Avenue                       Altoona           Pennsylvania
North Main Street--149 West Gray     Elmira           New York        3 West Broad Street                        Bethlehem         Pennsylvania
107 Charles Lindbergh Boulevard      Garden City      New York        220 South Main Street                      Butler            Pennsylvania
1180 Veterans Memorial Highway       Hauppauge        New York        1314 Griswald Plaza                        Erie              Pennsylvania




                                                                                                                                 Page 28
                                                    The Taxpayer Assistance Center
                                               Closure Plan Was Based on Inaccurate Data



Street Address                     City              State            Street Address                        City                   State
228 Walnut Street                  Harrisburg        Pennsylvania     8626 Tesoro Drive                     San Antonio            Texas
801 Old York Road                  Jenkintown        Pennsylvania     500 North Stateline Street            Texarkana              Texas
319 Washington Street              Johnstown         Pennsylvania     909 Ese Loop 323-3rd                  Tyler                  Texas
601 South Henderson Road           King Of Prussia   Pennsylvania     6801 Sanger Avenue                    Waco                   Texas
1720 Hempstead Road Building 144   Lancaster         Pennsylvania     4309 Jacksboro Highway                Wichita Falls          Texas
1400 North Providence Road         Media             Pennsylvania     324 25th Street                       Ogden                  Utah
4314 Old William Penn Highway      Monroeville       Pennsylvania     173 East 1st 100 North                Provo                  Utah
600 Arch Street                    Philadelphia      Pennsylvania     50 South 200 East                     Salt Lake City         Utah
1000 Liberty Avenue                Pittsburgh        Pennsylvania     210 North 1950 West                   Salt Lake City         Utah
201 Penn Street                    Reading           Pennsylvania     1222 Putney Street                    Brattleboro            Vermont
409 Lackawanna Avenue              Scranton          Pennsylvania     199 Main Street                       Burlington             Vermont
2038 Sandy Drive                   State College     Pennsylvania     State Street                          Montpelier             Vermont
547 Keystone Drive                 Warrendale        Pennsylvania     Eastridge Building, Route 4           Rutland                Vermont
162 West Chestnut Street           Washington        Pennsylvania     5205 Leesburg Pike                    Baileys Crossroads     Virginia
7 North Wilkes-Barre Boulevard     Wilkes Barre      Pennsylvania     2426 Lee Highway-Preston Square       Bristol                Virginia
330 Pine Street                    Williamsport      Pennsylvania     401 East Market Street                Charlottesville        Virginia
2801 Eastern Boulevard             York              Pennsylvania     3303 Highway 29n                      Danville               Virginia
380 Westminster Mall               Providence        Rhode Island     615-C Jefferson Davis Highway         Fredericksburg         Virginia
60 Quaker Lane                     Warwick           Rhode Island     903 Gateway Boulevard                 Hampton                Virginia
1 Poston Road                      Charleston        South Carolina   1101 Court Street                     Lynchburg              Virginia
1835 Assembly Street               Columbia          South Carolina   200 Granby Street                     Norfolk                Virginia
401 West Evans Street              Florence          South Carolina   400 North Eighth Street               Richmond               Virginia
440 Roper Mountain Road            Greenville        South Carolina   210 1st Street, Southwest             Roanoke                Virginia
601 19th Avenue North              Myrtle Beach      South Carolina   1600 North Coalter Street             Staunton               Virginia
115 4th Avenue Southeast           Aberdeen          South Dakota     520 112th Avenue Northeast            Bellevue               Washington
515 9th Street                     Rapid City        South Dakota     114 West Magnolia                     Bellingham             Washington
1720 South Southeastern Avenue     Sioux Falls       South Dakota     3020 Rucker Avenue                    Everett                Washington
5740 Uptain Road                   Chattanooga       Tennessee        8911 West Grandridge Boulevard        Kennewick              Washington
109 South Highland                 Jackson           Tennessee        402 Legion Way Southeast              Olympia                Washington
2513 Wesley Street                 Johnson City      Tennessee        915 Second Avenue                     Seattle                Washington
710 Locust Street                  Knoxville         Tennessee        9833 Poplars Avenue Northwest, #105   Silverdale             Washington
22 North Front Street              Memphis           Tennessee        920 West Riverside Avenue             Spokane                Washington
801 Broadway                       Nashville         Tennessee        1201 Pacific Avenue                   Tacoma                 Washington
341 Pine Street                    Abilene           Texas            500 West 12th Street                  Vancouver              Washington
7201 I-40 West                     Amarillo          Texas            107 South 7th Avenue, Suite 200       Yakima                 Washington
825 Eeat Rundberg Lane             Austin            Texas            11 Chenoweth Drive                    Bridgeport             West Virginia
350 Pine Street                    Beaumont          Texas            1206 Quarrier Steet                   Charleston             West Virginia
555 North Carancahua               Corpus Christi    Texas            845 Fifth Avenue                      Huntington             West Virginia
1100 Commerce Street               Dallas            Texas            55 Meridian Parkway                   Martinsburg            West Virginia
1801 North Hampton                 De Soto           Texas            425 Juliana Street                    Parkersburg            West Virginia
700 East San Antonio               El Paso           Texas            Riffe Steet and James Street          Sophia                 West Virginia
4050 Alpha Road                    Farmers Branch    Texas            1021 National Road                    Wheeling               West Virginia
819 Taylor Street                  Fort Worth        Texas            1901b East Capitol Drive              Appleton               Wisconsin
2701 South 77 Sunshine Strip       Harlingen         Texas            2403 Folsom Street                    Eau Claire             Wisconsin
8701 South Gessner                 Houston           Texas            1920 Libal Street                     Green Bay              Wisconsin
1919 Smith                         Houston           Texas            425 State Street                      La Crosse              Wisconsin
8876 Gulf Freeway                  Houston           Texas            545 Zor Shrine Place                  Madison                Wisconsin
12941 I 45                         Houston           Texas            310 West Wisconsin Avenue             Milwaukee              Wisconsin
1800 West Loop 281                 Longview          Texas            10208 Park Plaza                      Mosinee                Wisconsin
1205 Texas                         Lubbock           Texas            100 East B Street                     Casper                 Wyoming
1004 North Big Spring              Midland           Texas            5353 North Yellowstone Road           Cheyenne               Wyoming
33 East Twohig                     San Angelo        Texas            1949 Sugarland Drive                  Sheridan               Wyoming

Source: Internal Revenue Service Taxpayer Assistance Center Closure Model.




                                                                                                                                 Page 29
                                       The Taxpayer Assistance Center
                                  Closure Plan Was Based on Inaccurate Data



                                                                                                                           Appendix V

         Taxpayer Assistance Center
   Closure Model Subcomponents, Rankings,
           and Associated Weights

                          Submodel 1 (Geographic Impact to Taxpayer Assistance Center Closures)1
                      Subcomponent                                   Ranking of Subcomponent                               Weight
Traffic Volumes for Filing Season                      Lower volumes will have a higher probability of selection           16.67%
Traffic Volumes for Non-Filing Season                     Lower volumes will have a higher probability of selection        16.67%
Distance to Nearest Taxpayer Assistance Center            Closer to other taxpayer assistance centers will have a higher   16.67%
                                                          probability of selection
Distance to Nearest Volunteer Income Tax Assistance       Closer to a Volunteer Income Tax Assistance center will          16.67%
Center2                                                   have a higher probability of selection
Distance to Nearest Kiosk or Post Office                  Closer to a Kiosk3 or Post Office will have a higher             16.67%
                                                          probability of selection
                         Submodel 2 (Employee Cost Impact to Taxpayer Assistance Center Closures)
                        Subcomponent                                 Ranking of Subcomponent                               Weight
Number of Managers                                        Higher number, higher probability of selection                    6.25%
Number of Secretaries                                     Higher number, higher probability of selection                    6.25%
Number of Initial Assistance Representatives4             Higher number, higher probability of selection                    6.25%
Number of Taxpayer Resolution Representatives5            Higher number, higher probability of selection                    6.25%
Number of Customer Service Representatives6               Higher number, higher probability of selection                    6.25%
Number of Others                                          Higher number, higher probability of selection                    6.25%
Number of Employees in Taxpayer Assistance Center         Higher number, higher probability of selection                    6.25%
Number of Permanent Full-Time Employees                   Higher number, higher probability of selection                    6.25%
Number of Seasonal Full-Time Employees                    Higher number, higher probability of selection                    6.25%
Number of Seasonal Part-Time Employees                    Higher number, higher probability of selection                    6.25%
Direct Total Labor Hours                                  Lower hours, higher probability of selection                      6.25%
Direct Total Overhead Hours                               Higher hours, higher probability of selection                     6.25%
Average Salary                                            Higher dollars, higher probability of selection                   6.25%
Average Benefits                                          Higher dollars, higher probability of selection                   6.25%
Average Overhead/Non-Labor Costs                          Higher dollars, higher probability of selection                   6.25%
Retirement Availability (currently)                       Greater availability, higher probability of selection
Retirement Availability (in less than 1 year)             Greater availability, higher probability of selection
                                                                                                                            6.25%
Retirement Availability (within 1 to 5 years)             Greater availability, higher probability of selection
Retirement Availability (after 5 years)                   Greater availability, higher probability of selection




                                                                                                                                    Page 30
                                                The Taxpayer Assistance Center
                                           Closure Plan Was Based on Inaccurate Data



                                Submodel 3 (Facilities Cost Impact to Taxpayer Assistance Center Closures)
                              Subcomponent                                      Ranking of Subcomponent                    Weight
         Space Usage in Square Feet                             Greater space, higher probability of selection             12.50%
         Furniture Costs                                           Higher dollars, higher probability of selection         12.50%
         Square Footage Costs                                      Higher dollars, higher probability of selection         12.50%
         Total Rent/Leasing Cost                                   Higher dollars, higher probability of selection         12.50%
         Length of Rent/Leasing Contract                           Shorter term, higher probability of selection           12.50%
         Modern Information Technology Services                    Higher dollars, higher probability of selection         12.50%
                                    Submodel 4 (Workload Impact to Taxpayer Assistance Center Closures)
                                Subcomponent                                   Ranking of Subcomponent                     Weight
         Tax Law Questions                                      Higher volumes, higher probability of selection            14.29%
         Customers with Forms Contacts                             Higher volumes, higher probability of selection         14.29%
         Return Preparation Workload                               Lower volumes, higher probability of selection          14.29%
         Account Work Notices                                      Lower volumes, higher probability of selection          14.29%
         Other Field Assistance Contacts                           Lower volumes, higher probability of selection          14.29%
         Modernization Efforts Applied (Yes/No)                    No-higher probability of selection                      14.29%
         Abandoned Taxpayer Assistance Center (Yes/No)             Yes-higher probability of selection                     14.29%
                                  Submodel 5 (Demographic Impact to Taxpayer Assistance Center Closures)
                               Subcomponent                                   Ranking of Subcomponent                      Weight
         Population Impact by Zip Code                         Lower volumes, higher probability of selection              7.14%
         Income Level by Zip Code                                  Higher dollars, higher probability of selection         7.14%
         Population Considered in Poverty (>18 years)              Lower population, higher probability of selection       7.14%
         Percentage with Age=65+ by Zip Code                       Lower percentage, higher probability of selection       7.14%
         Population with Household Income <$35,000 (<65 years)     Higher population, lower probability of selection       7.14%
         Population with Household Income <$35,000 (65+ years)     Higher population, lower probability of selection       7.14%
         Number of Returns Filed by Zip Code                       Lower number, higher probability of selection           7.14%
         Number of Earned Income Tax Credit Returns Filed by Zip   Lower number, higher probability of selection           7.14%
         Percentage of Spanish-Speaking Population by Zip Code     Lower percentage, higher probability of selection       7.14%
         Equal Employment Opportunity Demographic Categories       Lower representation, higher probability of selection   7.14%
         Percent of electronically filed by Zip Code               Higher percentage, higher probability of selection      7.14%
         Percent Unemployed by Zip Code                            Lower percentage, higher probability of selection       7.14%
         Probability of Having Higher Education by Zip Code        Higher level, higher probability of selection           7.14%
         Probability of Owning a Computer by Zip Code              Higher percentage, higher probability of selection      7.14%

        Source: Taxpayer Assistance Center Closure Model.
1.   Internal Revenue Service (IRS) employees who work in the Taxpayer Assistance Centers (TAC) provide
     face-to-face assistance to customers by interpreting tax laws and regulations, preparing certain individual tax
     returns, resolving inquiries on taxpayer accounts, accepting payments, and providing various other services
     designed to minimize the burden on taxpayers in satisfying their tax obligations. The IRS currently has 400
     TACs. To determine which TACs to close with a minimal impact to the taxpaying public, the IRS and an
     independent contractor used an industry-standard software package and developed the TAC Closure Model.
2.   Program run by the IRS through which trained community volunteers provide free tax help to individuals who
     qualify.
3.   A self-service, multimedia structure used to dispense tax forms and basic tax information.
4.   IRS employees who work at the TACs greeting and questioning taxpayers to determine the type of assistance
     needed.
5.   IRS employees who work at the TACs and are trained to provide end-to-end services to individual taxpayers.
6.   IRS employees who work at the TACs and are trained to communicate with taxpayers and to be knowledgeable
     of tax law and related IRS operational procedures.


                                                                                                                                   Page 31
                                                      The Taxpayer Assistance Center
                                                 Closure Plan Was Based on Inaccurate Data



                                                                                                                                Appendix VI

                           Taxpayer Assistance Centers Included
                            in the Treasury Inspector General for
                                Tax Administration Validation

     Employees in the Taxpayer Assistance Centers provide face-to-face assistance to customers by
     interpreting tax laws and regulations, preparing certain individual tax returns, resolving inquiries
     on taxpayer accounts, accepting payments, and providing various other services designed to
     minimize the burden on taxpayers in satisfying their tax obligations.
Reference                                                                        Reference
 Number     Street Address                   City               State             Number     Street Address                     City                 State
    1       3090 Highway 95                  Bullhead City      Arizona             31       1200 Waters Place                  Bronx                New York
    2       2610 Sweetwater Avenue           Lake Havasu City   Arizona             32       625 Fulton Street                  Brooklyn             New York
    3       850 Industrial Street            Redding            California          33       1180 Veterans Memorial Highway     Hauppauge            New York
    4       4330 Watt Avenue                 Sacramento         California          34       300 Commerce Drive                 New Windsor          New York
    5       55 Plaza Circle                  Salinas            California          35       242 West Nyack Road                West Nyack           New York
    6       1332 Anacapa Street              Santa Barbara      California          36       210 East Post Road                 White Plains         New York
    7       777 Sonoma Avenue                Santa Rosa         California          37       2 South Main Street                Akron                Ohio
    8       2864 South Circle Drive          Colorado Springs   Colorado            38       200 North High Street              Columbus             Ohio
    9       135 High Street                  Hartford           Connecticut         39       1720 Hempstead Road Building 144   Lancaster            Pennsylvania
   10       24 Belden Avenue                 Norwalk            Connecticut         40       1400 North Providence Road         Media                Pennsylvania
   11       227 North Bronough Street        Tallahassee        Florida             41       201 Penn Street                    Reading              Pennsylvania
   12       355 Hancock Avenue               Athens             Georgia             42       2038 Sandy Drive                   State College        Pennsylvania
   13       2888 Woodcock Boulevard          Atlanta            Georgia             43       162 West Chestnut Street           Washington           Pennsylvania
   14       101 West 2nd Street              Davenport          Iowa                44       2801 Eastern Boulevard             York                 Pennsylvania
   15       1820 East 17th Street            Idaho Falls        Idaho               45       115 4th Avenue Southeast           Aberdeen             South Dakota
   16       611 Wilson Avenue                Pocatello          Idaho               46       5740 Uptain Road                   Chattanooga          Tennessee
   17       3101 Constitution Drive          Springfield        Illinois            47       2701 South 77 Sunshine Strip       Harlingen            Texas
   18       2765 Wayne Sullivan Drive        Paducah            Kentucky            48       8701 South Gessner                 Houston              Texas
   19       212 West Main Street             Salisbury          Maryland            49       173 East 1st 100 North             Provo                Utah
   20       11510 Georgia Avenue             Wheaton            Maryland            50       210 North 1950 West                Salt Lake City       Utah
   21       220 Maine Mall Road              So. Portland       Maine               51       50 South 200 East                  Salt Lake City       Utah
   22       3241 Racquet Club Drive          Traverse City      Michigan            52       5205 Leesburg Pike                 Baileys Crossroads   Virginia
   23       1550 American Boulevard          Bloomington        Minnesota           53       903 Gateway Boulevard              Hampton              Virginia
   24       3333 South National              Springfield        Missouri            54       400 North Eighth Street            Richmond             Virginia
   25       220 West Lamme Street            Bozeman            Montana             55       Eastridge Building, Route. 4       Rutland              Vermont
   26       3904 Oleander Drive              Wilmington         North Carolina      56       520 112th Avenue Northeast         Bellevue             Washington
   27       305 17th Avenue Southwest        Minot              North Dakota        57       9833 Poplars Ave, Northwest #105   Silverdale           Washington
   28       410 Amherst Street               Nashua             New Hampshire       58       2403 Folsom Street                 Eau Claire           Wisconsin
   29       1 Kalisa Way                     Paramus            New Jersey          59       1920 Libal Street                  Green Bay            Wisconsin
   30       Clinton Avenue and North Pearl   Albany             New York            60       Riffe Street and James Street      Sophia               West Virginia
            Source: Taxpayer Assistance Centers visited by Treasury Inspector General for Tax Administration auditors.




                                                                                                                                              Page 32
                                The Taxpayer Assistance Center
                           Closure Plan Was Based on Inaccurate Data



                                                                           Appendix VII

       External Stakeholders Contacted by the
  Treasury Inspector General for Tax Administration

Account Ability Minnesota Mission
American Institute of Certified Public Accountants
Center for Economic Progress
Children’s Defense Fund
Federal Deposit Insurance Corporation
Iowa State University Extension
Legal Services of North Dakota
Low Income Tax Clinic/University of Missouri Graduate Tax Law Foundation
National Community Tax Coalition
University of Connecticut Law School Legal Clinic
Women’s Economic Development, Atlanta, Georgia




                                                                                 Page 33
               The Taxpayer Assistance Center
          Closure Plan Was Based on Inaccurate Data



                                               Appendix VIII

Management’s Response to the Draft Report




                                                      Page 34
     The Taxpayer Assistance Center
Closure Plan Was Based on Inaccurate Data




                                            Page 35
     The Taxpayer Assistance Center
Closure Plan Was Based on Inaccurate Data




                                            Page 36
     The Taxpayer Assistance Center
Closure Plan Was Based on Inaccurate Data




                                            Page 37
     The Taxpayer Assistance Center
Closure Plan Was Based on Inaccurate Data




                                            Page 38
